APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA SECURED

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

1.90% to 5.90%

Introductory APR, for qualifying members,
for a period of 12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for an Introductory APR, your APR will be

8.90% to 18.00% , based on your creditworthiness.

Visa Secured

14.90%

APR for Balance Transfers

Visa Platinum
1.90% to 5.90% Introductory APR, for qualifying members, for a period of
12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for an Introductory APR, your APR will be
8.90% to 18.00% , based on your creditworthiness.

APR for Cash Advances

Visa Secured
14.90%
Visa Platinum
1.90% to 5.90% Introductory APR, for qualifying members, for a period of
12 billing cycles, based on your creditworthiness.
After that, or if you do not qualify for an Introductory APR, your APR will be
11.90% to 18.00% , based on your creditworthiness.
Visa Secured
17.90%

Penalty APR and When it Applies

Visa Platinum
None
Visa Secured
None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau

If you are charged interest, the charge will be no less than $1.00.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04208549-MXC10-C-1-030220 (MXC101-E)

Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

None
None
1.00% of each transaction in U.S. dollars
Up to $25.00
None
Up to $32.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR - Visa Platinum:
The Introductory APR for purchases, balance transfers, and cash advances will apply to transactions posted to your
account during the first 12 billing cycles following the opening of your account. Any existing balances on FirstLight Federal
Credit Union credit card accounts are not eligible for the Introductory APR for balance transfers.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: March 05, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Platinum and Visa Secured are secured credit cards. Credit extended under
this credit card account is secured by various personal property and money including, but not limited to: (a) any
goods you purchase with this account, (b) any shares you specifically pledge as collateral for this account on a
separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union
excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
All of these fees will be charged to Your Credit Card Account.
Stop Payment Fee:
$32.00.
Returned Payment Fee:
$28.00 or the amount of the required minimum payment, whichever is less. In the event a payment is returned in the same
or in any of the six billing cycles following the initial violation, you will be charged $32.00 or the amount of the required
minimum payment, whichever is less.
Rush Fee:
$30.00.
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
Card Replacement Fee:
$10.00.
Document Copy Fee:
$5.00.
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04208549-MXC10-C-1-030220 (MXC101-E)

Statement Copy Fee:
$5.00.
Pay-by-Phone Fee:
$5.00 when payment is processed by a live agent. There is no fee when you process the payment yourself via online
banking.
Expedited Payment Fee:
$5.00.
Returned Visa Statement:
$5.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04208549-MXC10-C-1-030220 (MXC101-E)

